LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

October 31, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-439:

CTIA - THE WIRELESS ASSOCIATION V. THE CITY OF BERKELEY,
CALIFORNIA, AND CHRISTINE DANIEL, CITY MANAGER OF
BERKELEY, CALIFORNIA, IN HER OFFICIAL CAPACITY

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae Association of National Advertisers, Inc. in Support of Petitioner referenced
above contains 5,886 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
As a member of the Supreme Court Bar, I declare under penalty of perjury that
the foregoing is true and correct.
Sincerely,

Arthur D. Chotin, Esq.
Principal

